         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Use of Noncompetitive
Procurements to Obtain Services at
the Savannah River Site




DOE/IG-0862                                 April 2012
                                   Department of Energy
                                     Washington, DC 20585
                                           April 10, 2012



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Use of Noncompetitive
                         Procurements to Obtain Services at the Savannah River Site"
INTRODUCTION AND OBJECTIVE
Savannah River Nuclear Solutions, LLC (SRNS), assumed management and operating
responsibility for the Department of Energy's Savannah River Site located near Aiken, South
Carolina, in August 2008. Under its contract, SRNS is responsible for environmental cleanup,
national security activities and operation of the Savannah River National Laboratory. SRNS is a
limited liability corporation whose parent companies include Fluor Federal Services, Inc.;
Newport News Nuclear, Inc.; and, Honeywell International, Inc. The Savannah River
Operations Office provides Department oversight for all Office of Environmental Management
operations for the site.
To help ensure that procurements from affiliates are free from conflicts of interest, adequately
competed and reasonable in cost, the Department's contractors are required to obtain approval of
related party procurements from Federal officials. For the SRNS contract, the Department
established a requirement that procurements from the parent or an affiliate, regardless of type or
amount, be submitted for approval prior to award. As we reported in our Inspections report on
Organizational Conflicts of Interest Program at Sandia National Laboratories (DOE/IG-0853,
July 2011), such reviews are essential to ensure that potential or actual Organizational Conflicts
of Interest (OCI) are identified, prevented, and/or mitigated.
In 2009, SRNS awarded two noncompetitive contracts for personnel services to two of its three
parent companies, Fluor and Newport News. During the period June 2009 through August 2010,
SRNS released 126 purchase orders against these contracts valued at approximately $26 million.
Given the significant level of activity in this area, we initiated this audit to determine whether the
Department had ensured that SRNS appropriately applied contracting requirements when
noncompetitively acquiring services from affiliates or related parties.
RESULTS OF AUDIT
We found that SRNS had not always met its contractual obligations when acquiring services
from its affiliates. Specifically, SRNS had not:
        Obtained required Department approval for the two noncompetitive contracts it awarded
        to Fluor and Newport News during 2009. Although specifically required under the
        terms of its contract, SRNS also did not obtain approval for subsequent modifications
                                                 2


        that increased the budget ceilings for those contracts from $5 million to $40 million in
        one case, and, from $500,000 to $15 million in the other;

        Demonstrated, in most cases, that the affiliates were the only sources capable of
        providing the expertise necessary to perform the needed services, a pre-requisite for
        noncompetitive awards to affiliate companies; and,
        Performed cost analyses to ensure the reasonableness of the cost of affiliate personnel
        services, as required.
Our review of a statistical sample of noncompetitive acquisitions made under the two affiliate
personnel services contracts disclosed that in 34 of 42 (81 percent) acquisitions sampled, SRNS
had not demonstrated that an affiliate source was the only source of the needed expertise.
Additionally, we were unable to obtain evidence that the required cost reasonableness analysis of
affiliate personnel services was performed. For example, SRNS issued noncompetitive purchase
orders to obtain the services of an internal auditor and a project controls scheduler from a parent
company, Fluor. In the first order, the period of performance was approximately 21 months, at
an estimated cost of $400,412, which included $310,013 in labor and $90,399 in estimated travel
related to temporary living expenses and periodic trips home. In the second order, the period of
performance was approximately 24 months, at an estimated cost of $408,515, which included
$285,406 in labor and $123,109 in estimated travel. In neither case did SRNS demonstrate that
the individuals solely possessed special expertise or that the acquisitions were reasonable in cost.

The noncompetitive acquisitions occurred and persisted because the Department did not
effectively administer the SRNS contract as it pertains to the procurement of affiliate personnel
services. For example, Department contracting officials were apparently unaware that they had
approved, in June 2010, an exemption from Federal requirements for the acquisition of affiliate
personnel services as part of a multiple modification initiative to SRNS' procurement manual.
Furthermore, Department contracting officials stated that they were aware that SRNS had
proposed using affiliate personnel services, but they were unaware of how extensively the
services were being used. Additionally, the Department was not notified of a potential OCI
because SRNS' General Counsel determined that SRNS did not need to submit a representation
regarding such a potential conflict to the Department for these two noncompetitive contracts with
parent companies. According to senior contractor officials, SRNS had tacit approval to use
affiliate personnel services because the intention had been disclosed in the contract proposal
prior to award of the management and operating contract. As a result, even though specifically
required under the terms of its contract, SRNS never submitted its affiliate personnel service
contracts with Fluor and Newport News to the Department for approval.

SRNS sought to rely on inclusion of its intent to acquire personnel services as tacit approval for
the process, yet violated a major condition of its original proposal. Specifically, the SRNS
proposal stated that "Should the availability of critical skills become an issue … we will fill any
short-term gaps by drawing from the qualified personnel of our member companies." SRNS
defines short-term assignments as work expected to last less than 12 months. However, of the 42
purchase orders in our sample, 22 contain assignments that have lasted 12 months or longer.

We also noted that SRNS officials directly involved in the overall management and
administration of the two affiliate contracts had what we considered to be an apparent conflict of
                                                 3


interest in that they were assigned to SRNS but remained employees of the parent companies.
The relationship of these SRNS employees to the affiliates, coupled with their responsibilities
associated with administering the two affiliate contracts, calls into question SRNS' ability to
provide assurance that it was performing objectively and without bias, and, as a result,
preventing the affiliates from receiving an unfair competitive advantage. No instance of personal
enrichment came to our attention during the course of our review. In our opinion, however, the
appointment of affiliate personnel to key management positions, whose roles include
administering the two affiliate contracts, creates a potential conflict of interest that had not been
evaluated by SRNS, had not been brought to the attention of the Department, and was contrary to
the very explicit terms of the master contract.

In the absence of effective Department oversight of SRNS' acquisition of affiliate personnel
services, the Department lacked assurance that due consideration was given to acquiring these
services via competitive means, that the services were obtained at fair and reasonable prices, and,
as a consequence, the best interests of the U.S. taxpayers were protected. The significance of
this is demonstrated by the fact that, at the time of our review, SRNS had released purchase
orders against the two noncompetitive contracts with Fluor and Newport News totaling
approximately $26 million and had raised the contractual budget ceilings for these contracts from
$5.5 million to $55 million.

During the audit, the Savannah River Operations Office initiated a review to determine the
reasonableness of the cost of affiliate personnel services that were acquired. While this action is
commendable, we believe that additional action is necessary. As such, and to further address the
issues identified in this report, we made a number of recommendations designed to strengthen
the Department's oversight of SRNS' acquisitions from affiliates and address deficiencies
associated with SRNS' acquisition of affiliate personnel services.

MANAGEMENT REACTION

Management partially concurred with the report's recommendations and cited certain planned,
initiated or completed actions. In one important aspect, management did not agree with our
conclusions regarding procurements from affiliates and outlined actions that are not completely
responsive to our recommendations. Notably, management expressed its opinion that the
transactions we reviewed should have been classified as human resource actions that did not
amount to procurements. Management, however, acknowledged the risks associated with
improper use of affiliate personnel services. We believe that regardless of how the actions are
described, there is still a compelling need to ensure that SRNS obtains services from corporate
affiliates at fair and reasonable prices. Management's comments and our responses are
summarized and more fully discussed in the body of our report. Management's formal comments
are included in Appendix 3 of the report.
Attachment
cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Nuclear Security
    Chief of Staff
    Director, Office of Management
REPORT ON USE OF NONCOMPETITIVE PROCUREMENTS TO
OBTAIN SERVICES AT THE SAVANNAH RIVER SITE


TABLE OF
CONTENTS


Use of Noncompetitive Procurements

Details of Finding                                1

Recommendations and Comments                      6


Appendices

1.   Objective, Scope and Methodology             8

2.   Prior Report                                 10

3.   Management Comments                          11
USE OF NONCOMPETITIVE PROCUREMENTS TO OBTAIN SERVICES
AT THE SAVANNAH RIVER SITE

Requirements for        The Department of Energy's (Department) Management and
Contractor Purchasing   Operating (M&O) contract with Savannah River Nuclear
Systems                 Solutions, LLC (SRNS) establishes basic requirements for
                        purchasing products and services. Specifically, SRNS is required
                        to develop, implement and maintain formal policies, practices and
                        procedures that meet Federal acquisition regulations. SRNS is
                        required to ensure, among other things, the acquisition of quality
                        products and services at fair and reasonable prices and the use of
                        effective competitive procurement techniques. SRNS' contract
                        also provides that it can purchase goods and services from affiliate
                        sources when the acquisition is consistent with Federal contracting
                        officer approved policies and procedures designed to permit
                        effective competition. SRNS can acquire technical services on a
                        sole-source basis from affiliate entities where those entities have a
                        special expertise, provided the basis for such acquisition is
                        documented. SRNS' approved Procurement Practices Manual
                        which documents its policies, practices and procedures for
                        purchasing goods and services, was effective April 2009.

                        The Savannah River Operations Office provides Department
                        oversight for all Office of Environmental Management operations
                        for the Savannah River Site, including those conducted by SRNS.
                        In addition, to help ensure that procurements from affiliates are
                        free from conflicts of interest, SRNS' contract required the
                        development of an Organizational Conflict of Interest (OCI)
                        Management Plan, including a requirement for SRNS to inform the
                        Savannah River Operations Office's Chief Counsel and
                        Contracting Officer as soon as a determination is made of the
                        existence of a potential conflict that cannot be immediately
                        resolved. Further, the OCI Management Plan stipulates that once a
                        potential issue has been raised, it will not be considered resolved
                        until the Contracting Officer determines that no further action is
                        required.

Use of                  SRNS had not fully implemented procurement procedures
Noncompetitive          designed to ensure effective competition when acquiring personnel
Procurements to         services from affiliate sources. Specifically, in 2009 SRNS
Obtain Services         awarded noncompetitive contracts for personnel services to its
                        parent companies Fluor Federal Services, Inc. (Fluor) and Newport
                        News Nuclear, Inc. (Newport News). Further, during the period
                        June 2009 through August 2010, SRNS released 126 purchase
                        orders under these 2 contracts to obtain services totaling
                        approximately $26 million. In making the awards, SRNS did not
                        obtain prior approval of the noncompetitive awards, as required by
                        the Department. We also noted that between May 2009 and
                        October 2010, SRNS significantly increased the affiliate contracts'

Page 1                                                                  Details of Finding
         budget ceilings for obtaining affiliate personnel services without
         obtaining the required Department approval. The contracts with
         Fluor and Newport News contained initial budget ceilings of
         $5 million and $500,000. After several increases, these budget
         ceilings were raised to $40 million and $15 million, respectively.
         As previously discussed, neither the initial contracts nor the
         contract modifications increasing the budget ceilings were
         submitted to the Department for approval, as required.

         Additionally, SRNS, in noncompetitively acquiring personnel
         services under the contracts, had not demonstrated that either the
         sole-source acquisition was justified or that costs were reasonable,
         as required by its contract. Specifically, we reviewed a statistical
         sample of 42 of the 126 noncompetitive purchase orders issued
         under the 2 affiliate contracts by SRNS to obtain affiliate personnel
         services from the period June 2009 through August 2010. In 34 of
         42 (81 percent) purchase orders reviewed, totaling approximately
         $6.1 million, the file did not clearly define or document the
         specific special expertise needed to perform the required service
         and that the affiliate source solely possessed the specific special
         expertise. Also, we found no documentation to support any effort
         to obtain the services from a source other than an affiliate source.
         For the remaining eight purchase orders reviewed, the file
         contained documentation to support the need for special expertise
         that would only reasonably be available from an affiliate source.
         Further, in all 42 sample items, we found no documentation
         supporting the cost reasonableness of affiliate personnel services
         provided. Although SRNS obtained a cost estimate for the
         personnel service prepared by the affiliate source, no attempt was
         made to compare the estimated cost to the cost of other potential
         sources. We also noted that the 34 purchase orders mentioned
         above included over $1.3 million in estimated travel costs, 21
         percent of the total cost of the purchase orders. These travel costs
         included temporary living expenses and periodic trips home.

         For instance, SRNS issued a noncompetitive purchase order to
         obtain the services of an internal auditor from its parent company,
         Fluor. The scope of work description included planning and
         performing fieldwork, testing processes and procedures,
         identifying issues, and providing solutions in clear concise audit
         reports. Although two similar audit positions had previously been
         filled using staff augmentation services1, the requestor stated that
         only the corporate affiliate had the special expertise required for


         1
          Staff augmentation is a mechanism for temporarily increasing staffing on an as
         needed basis by subcontracting for individuals with specific labor skills.


Page 2                                                           Details of Finding
                    the internal audit position. However, the procurement file did not
                    document the special expertise required for the position or
                    demonstrate that the needed expertise could only be obtained using
                    the corporate affiliate. Although the individual selected for the
                    position had an audit background, the employee was not serving as
                    an auditor at Fluor, but instead held a position as a Senior
                    Accounting Manager. Further, the SRNS procurement file
                    contained a cost estimate for the services provided by Fluor, but
                    did not document cost comparisons to establish the reasonableness
                    of the estimate. The period of performance was January 14, 2010,
                    through September 30, 2011, at an estimated cost of $400,412,
                    which included $310,013 in fully burdened labor (3,275 hours) and
                    $90,399 in estimated travel. As an aid in judging the
                    reasonableness of such cost, the fully burdened cost for a
                    journeyman level Federal auditor for the same number of labor
                    hours, excluding travel, would be $224,403 (approximately 44
                    percent less than the total estimated cost for the internal auditor).

                    In another instance, SRNS issued a noncompetitive purchase order
                    to obtain the services of a project controls scheduler from Fluor.
                    Although the individual appeared to possess the necessary
                    education and experience to successfully perform the service, the
                    procurement file contained no evidence that this employee was the
                    only source possessing the experience necessary to perform the
                    service. In fact, the procurement file contained no position
                    description or employee resume. Further, the statement of work in
                    the procurement file did not clearly define or document the specific
                    level of special expertise that was necessary to perform the
                    required service. Discussions with SRNS officials revealed that a
                    number of similar positions had been filled using staff
                    augmentation services. The period of performance was October 5,
                    2009, through September 30, 2011, at an estimated cost of
                    $408,515, which included $285,406 in labor and $123,109 in
                    estimated travel.

Department's        The Department had not provided effective oversight of SRNS'
Oversight of        procurement of affiliate personnel services. For example, in June
Purchases from      2010, the Department approved an SRNS request to modify its
Affiliate Sources   procurement manual to, among other things, exempt affiliate
                    personnel services from effective competition and remove the
                    requirement to have all affiliate contracts approved by the
                    Department. However, the contracting official that approved the
                    modifications indicated not being aware of the specific
                    modifications that related to procurements with affiliate sources.
                    We noted that the Department approved the exemption and
                    removal of Department approval thresholds as part of an 18 page



Page 3                                                               Details of Finding
         proposal that made multiple modifications to the procurement
         manual. Department contracting officials also told us that while
         they were aware that SRNS had proposed using affiliate personnel
         services, they were unaware of how extensively it was being used.
         The supervisory contracting official explained that, despite the
         exemption, any cost incurred by SRNS must ultimately meet the
         tests of allowability, allocability and reasonableness in order to be
         reimbursed by the Department. The official stated that future
         procurement file audits or reviews could assess the appropriateness
         of costs incurred. In response to our review, on April 29, 2011, the
         Department's Contracting Officer initiated a review of the
         reasonableness of costs related to all affiliate personnel services
         charged to the contract.

         Additionally, the Department's ability to provide effective
         oversight was impeded because SRNS did not notify it of a
         potential OCI. Specifically, potential OCIs are required to be
         evaluated when contractors make purchasing decisions with
         affiliate sources. If a potential conflict of interest is determined to
         exist that cannot be immediately resolved, the contractor is
         required to inform the Department's Chief Counsel and
         Contracting Officer. In those instances, the issue is not considered
         resolved until the Contracting Officer determines that no further
         action is required. However, SRNS' General Counsel determined
         that an OCI representation need not be submitted for these two
         noncompetitive contracts with its parent companies. According to
         contractor procurement and general counsel officials, SRNS had
         tacit approval to use affiliate personnel services because the
         intention was disclosed in its proposal prior to contract award.

         Furthermore, in its formal proposal seeking contract award, SRNS
         stated that it intended to use affiliate personnel to fill short-term
         gaps in critical skills. Specifically, the proposal stated that
         "Should the availability of critical skills become an issue … we
         will fill any short-term gaps by drawing from the qualified
         personnel of our member companies." However, we determined
         that a number of affiliate employees at SRNS were not used to fill
         short-term gaps in critical skills, as defined by SRNS in its
         proposal. Although SRNS defined short-term assignments as work
         durations expected to last less than 12 months, we identified
         affiliate employees who exceeded the 12 month duration defined
         by SRNS as short-term. Based on our statistical sample of 42
         purchase orders, 22 (52 percent) of the purchase orders covered 26
         individual employees with assignments for affiliate personnel
         services that have lasted longer than 12 months, thus not
         considered short-term.



Page 4                                                      Details of Finding
                    Finally, while SRNS' General Counsel determined that it did not
                    need to submit an OCI representation to the Department for
                    approval, we noted that SRNS officials in key management
                    positions who were assigned to SRNS remained employees of the
                    affiliate companies and were in decision making positions
                    affecting contracts with their parent companies. Specifically,
                    SRNS officials in the offices of Chief Counsel, Contract
                    Management, Chief Financial Officer and Workforce Services
                    were directly involved in the overall management and
                    administration of the two affiliate contracts. These officials had
                    direct oversight concerning issuance of the two affiliate contracts
                    and they provided oversight associated with releasing individual
                    purchase orders against the affiliate contracts, reviewing affiliate
                    invoices for payment and increasing the affiliate contracts' budget
                    ceilings. The senior officials for each of these offices remained
                    employees of their affiliate companies, although they were
                    assigned to SRNS for an indefinite period of time greater than
                    12 months. The relationship of these employees, assigned to
                    SRNS from the affiliates, coupled with their responsibilities
                    associated with administering the two affiliate contracts, calls into
                    question SRNS' ability to provide assurance that it is performing
                    objectively and without bias, thus preventing the affiliates from
                    receiving an unfair competitive advantage. While we did not
                    identify any actual conflicts of interest during our review, in our
                    opinion, this creates an appearance of an OCI which has not been
                    evaluated by SRNS or brought to the attention of the Department.

Reasonableness of   While the Department's previously discussed review to determine
Cost for Services   the reasonableness of costs related to affiliate personnel services is
                    commendable, the Department faces significant challenges because
                    it will be difficult to determine whether SRNS is obtaining these
                    services at fair and reasonable prices. Specifically, without
                    appropriate documentation to justify the noncompetitive selection
                    of personnel from affiliate sources to perform needed services and
                    a determination of the reasonableness of the price paid for such
                    services, the Department cannot determine whether the services
                    could have been performed by entities outside the parent
                    companies or whether the services were performed by the parent
                    companies at fair and reasonable prices.

                    The use of affiliate personnel services also adds a burden of
                    substantial travel-related costs that may have been avoided through
                    competitive procurements of necessary personnel services. All
                    affiliate personnel services obtained from SRNS' affiliate
                    companies required travel. Based on our analysis of 34 of the 42
                    sampled purchase orders that had sufficient documentation on



Page 5                                                                Details of Finding
                  travel costs, SRNS estimated that it may incur at least $1.3 million
                  in travel-related costs related to temporary living expenses and
                  periodic trips home. These travel costs consist mainly of
                  transportation and per diem costs for affiliate personnel
                  temporarily assigned to the Savannah River Site. Therefore, the
                  Department is at increased risk of incurring unnecessary costs if it
                  does not ensure that competitive procurements are used to the
                  extent practical and that procurements from affiliate companies
                  comply with contract terms.

RECOMMENDATIONS   To ensure that SRNS is appropriately applying contracting
                  requirements for acquiring affiliate personnel services and to avoid
                  any appearance of potential or actual conflicts of interest, we
                  recommend that the Senior Advisor for Environmental
                  Management ensure that the Manager, Savannah River Operations
                  Office, directs the Contracting Officer to:

                      1. Reconsider the approval of changes to SRNS' Procurement
                         Practices Manual which exempted SRNS from Federal
                         competition requirements applicable to affiliate source
                         acquisitions and removed Departmental approval
                         threshold requirements associated with affiliate
                         transactions;

                      2. Require SRNS to conduct OCI reviews when issuing
                         contracts to its affiliates;

                      3. Enforce requirements for SRNS to submit its contracts for
                         affiliate personnel services with Fluor and Newport News
                         to the Department for approval; and,

                      4. Ensure SRNS follows procurement requirements when
                         noncompetitively acquiring affiliate personnel services, to
                         include determining that the affiliate is the sole-source of
                         needed expertise and that the services are obtained at fair
                         and reasonable prices.

MANAGEMENT        Management partially concurred with the report's findings and
REACTION          recommendations. Environmental Management (EM) agreed that
                  the acquisition of affiliate personnel services, which management
                  refers to as corporate reachback, should not be used as a means to
                  avoid or circumvent appropriate use of subcontractors or to
                  undermine prime-subcontractor competitive procurement methods
                  as set forth in the contract and applicable law. EM also agreed that
                  corporate reachback should be appropriately limited to specific
                  areas of expertise and in duration. However, EM concluded that



Page 6                                                                    Comments
           corporate reachback is not a procurement action, and asserted that
           it is a human resource (HR) action that is not subject to the
           restrictions that apply to procurements from affiliate sources.
           Rather than addressing the need to reconsider the approval of
           changes to the SRNS Procurement Practices Manual as indicated
           in Recommendation 1, EM stated that as of October 2011, SRNS
           implemented an HR business process for corporate reachback that
           is not subject to the SRNS Procurement Practices Manual.

           EM also did not envision the need for the Manager, Savannah
           River Operations Office, to provide direction relating to
           determining that the affiliate is the sole-source of needed expertise
           and that the services are obtained at fair and reasonable prices as
           indicated in Recommendation 4. Specifically, EM concluded that
           corporate reachback is not a procurement action and is not subject
           to a determination that the affiliate is the sole-source of needed
           expertise. Finally, EM stated that corporate reachback costs are
           subject to the same requirements for reimbursement as any other
           costs and only reimbursed to the extent that the costs are allowable
           and reasonable.

AUDITOR    We consider management's comments not fully responsive to our
COMMENTS   recommendations. Specifically, as indicated in Recommendation
           1, we believe that there is a need for EM to address exemptions
           and revisions to the SRNS Procurement Practices Manual, which
           among other things, effectively removed Departmental approval
           threshold requirements associated with all affiliate transactions.
           While management concluded that the use of corporate reachback
           is not a procurement action and is not subject to the restrictions
           that apply to procurements from affiliate sources, the removal of
           Departmental approval threshold requirements associated with
           affiliate transactions will limit oversight of all other procurements
           from affiliate sources. In addition, we believe, as outlined in
           Recommendation 4, that it is necessary for EM to ensure that
           SRNS obtains corporate reachback services at fair and reasonable
           prices. For instance, our work demonstrated that no
           documentation existed to support the cost reasonableness for the
           42 corporate reachback files we reviewed. Without addressing
           these areas, the Department would have difficulty ensuring that
           SRNS is adhering to requirements and that costs to the Department
           are reasonable.




Page 7                                                             Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department) had
              ensured that Savannah River Nuclear Solutions, LLC (SRNS)
              appropriately applied contracting requirements when
              noncompetitively acquiring services from affiliates or related
              parties.

SCOPE         The audit was performed from April 2010 to February 2012, at the
              Savannah River Operations Office and the offices of SRNS in
              Aiken, South Carolina. The scope of the audit was limited to a
              review of statistically selected samples of noncompetitive purchase
              orders for services issued by SRNS during the period June 1, 2009
              through August 30, 2010.

METHODOLOGY   To accomplish the audit objective, we:

                     Obtained and reviewed Department guidance and
                     requirements for contractor purchasing systems and
                     contractor purchases from affiliate sources;

                     Obtained and reviewed SRNS procurement procedures;

                     Interviewed key personnel at the Savannah River
                     Operations Office;

                     Obtained and reviewed SRNS procurement files associated
                     with noncompetitively acquired services at the Savannah
                     River Site; and,

                     Obtained and reviewed additional information provided by
                     SRNS officials concerning affiliate personnel services.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Accordingly, the audit
              included tests of controls and compliance with laws and
              regulations to the extent necessary to satisfy the objective.
              Specifically, we reviewed SRNS procurement files for
              noncompetitively acquired services issued during the period June
              1, 2009, through August 30, 2010, to determine the extent to which
              SRNS followed its prescribed procurement practices. We also
              assessed the Department's implementation of the Government
              Performance and Results Act of 1993 and determined that the


Page 8                                    Objective, Scope and Methodology
Appendix 1 (continued)

                    Department had not established performance measures specifically
                    related to the use of affiliate personnel services. Because our
                    review was limited, it would not necessarily have disclosed all
                    internal control deficiencies that may have existed at the time of
                    our audit. Finally, we relied upon computer-processed data to a
                    limited extent to accomplish our audit objective and performed
                    appropriate tests to validate the results.

                    An exit conference was held with the Office of Environmental
                    Management on February 23, 2012.




Page 9                                          Objective, Scope and Methodology
Appendix 2

                                   PRIOR REPORT

     Inspection Report on Organizational Conflicts of Interest Program at Sandia National
     Laboratories (DOE/IG-0853, July 2011). The inspection revealed a number of areas
     where Sandia National Laboratories (Sandia) could improve its Organizational Conflict
     of Interest (OCI) process to prevent potential or actual occurrences. Although
     specifically required by Federal Regulation and contractual provisions, Sandia had not
     completed a number of OCI-related activities. Specifically, appropriate OCI reviews
     were not always conducted in the areas of Technology Transfer License Agreements,
     Work for Others projects, Cooperative Research and Development Agreements, and
     subcontracts between Sandia and Lockheed Martin Corporation. These weaknesses
     occurred, in part, because Sandia failed to provide adequate direction to staff and
     management officials on the implementation of the OCI process. Further, Sandia had not
     provided all essential personnel with the necessary OCI training to assist them in
     identifying and mitigating OCI issues or concerns when encountered. Also, no specific
     performance measures related to Sandia's OCI Program had been established by the
     National Nuclear Security Administration (NNSA). Finally, NNSA had not conducted
     periodic assessments of the OCI Program to ensure that Sandia had satisfied its OCI
     responsibilities. Because the required OCI reviews were not performed for the items
     tested, the inspectors and responsible Department of Energy (Department)/NNSA Federal
     officials could not discern whether actual conflicts of interest existed. Such OCI
     determinations would have enabled the Department to better ensure that Lockheed Martin
     Corporation was not given an unfair competitive advantage. Management generally
     agreed with the report and the recommendations, and indicated that Sandia had already
     initiated improvement efforts in several areas to strengthen its OCI Program.




Page 10                                                                   Related Report
"Citing privacy concerns, the Office of Environmental Management
redacted the information contained in the blacked out portion of its
response"
                                                                    IG Report No. DOE/IG-0862


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
